          estimony

                      STATEMENT OF
                     DONALD MANCUSO
                DEPUTY INSPECTOR GENERAL
                  DEPARTMENT OF DEFENSE
                       BEFORE THE
                   COMMITTEE ON BUDGET
                HOUSE OF REPRESENTATIVES
                           ON
             DEFENSE MANAGEMENT CHALLENGES



Report No. D-2000-077    DELIVERED: February 17, 2000



              Office of the Inspector General
                  Department of Defense
Mr. Chairman and Members of the Committee:



I appreciate the opportunity to be here today to discuss the

management challenges faced by the Department of Defense (DoD)

and the responsiveness of its managers and commanders to

findings and advice provided by the Office of the Inspector

General, DoD.



The Committee needs no reminder that the DoD is one of the

largest and most complex organizations in the world.      The

Department is responsible for roughly $1.3 trillion in assets;

operates 638 major installations and thousands of small sites

around the world; and currently has about 700,000 civilian

employees and 2.4 million military personnel in the active

forces or the Ready and Standby Reserves.      Thousands of programs

and projects are needed for the Department to successfully

execute operations across the spectrum from warfighting to

peacekeeping as well as humanitarian and emergency relief

operations.     Critical functions include:   research and

development; procurement; logistics; intelligence; and a wide

variety of other activities to train, equip and sustain the

Armed Forces.



There has been widespread concern about waste and inefficiency

in military programs throughout this nation’s history.       Although
                                                                   2


it is doubtful that efforts to equip and support the Armed

Forces are inherently more susceptible to fraud or mismanagement

than other government activities, the size and complexity of the

Department of Defense pose formidable management challenges and

risks.   The Department’s own assessments of the need for

reforms, oversight by the Congress, General Accounting Office

reports, and the work of the DoD audit and investigative

communities show that a wide range of problems currently merit

attention and action.   We welcome additional measures, such as

the Committee’s Wastebusters website, to help identify problems

and risks.   Tips that you refer to us from the Wastebusters

website will supplement those received on our own DoD Hotline,

which averages 14,000 calls annually.



A few weeks ago, you referred about three dozen e-mail tips

received at the Wastebusters website to my office for review.

We appreciate every new source of leads for possible audits and

investigations.   I assure you that we are taking the

Wastebusters tips seriously and will keep the Committee fully

informed on the disposition of each one.   For example, because

three Wastebusters tips concerned the new DoD Standard

Procurement System (SPS), we have initiated an audit of SPS

implementation at Air Force sites.
                                                                    3


Another welcome recent congressional initiative was the joint

letter in September 1999 from the House Majority Leader, the

Chairmen of the House Government Reform Committee, Senate Budget

Committee and Senate Governmental Affairs Committee, and you,

Mr. Chairman, on DoD management challenges.    Specifically, you

requested we update our previous assessments of the most serious

management problems facing the DoD; identify related reports;

summarize significant audit recommendations that address major

problem areas; comment on progress made in implementing audit

recommendations and correcting management problems; and identify

programs that have had questionable success in achieving

results.   Although we have worked to include much information of

that kind in our semiannual reports, we appreciated the

additional opportunity to discuss the results of our oversight

efforts.



Our December 15, 1999 reply to the joint inquiry discussed

groups of often interrelated problems which we sorted into ten

principal management challenges, as follows:



     (1)   Information Technology Management

     (2)   Information Technology Security

     (3)   Other Security Concerns

     (4)   Financial Management
                                                                    4


     (5)   Acquisition

     (6)   Health Care

     (7)   Supply Inventory Management

     (8)   Other Infrastructure Issues

     (9)   Readiness

     (10) Turbulence from Change



                   DoD Management Responsiveness



Before discussing each area, I would like to address the overall

question of DoD responsiveness to the need for reform and the

specific issue of how well managers respond to Inspector

General, DoD, advice.



Starting in the late 1980’s and continuing through the 1990’s

into the present day, the DoD has been attempting to restructure

virtually all of its internal processes.    The Congress has been

closely involved in dozens of specific initiatives, particularly

in the area of acquisition reform.    Our overall assessment is

that the DoD has seldom, if ever, been so committed to across

the board management improvement.    However, even after several

years of concerted effort, progress has been mixed and much more

needs to be done to cut costs and improve effectiveness.
                                                                    5


To identify specific problems and monitor improvement efforts,

the Department performs a huge number of self-assessments,

including thousands of internal audits and inspections annually.

Those assessments include about 250 audit and evaluation reports

with about 1,000 recommendations each year from the Office of

the Inspector General, DoD.



To respond to the problems identified by audits, management

reform studies and other reviews, the DOD is carrying out many

hundred major management improvement initiatives simultaneously.

Cumulatively, and with continuous management emphasis, those

initiatives should dramatically improve the efficiency of DoD

support operations over the next several years.   We also believe

that, on an overall basis, the Department is being very

responsive to audit advice as it develops and carries out these

management improvements.   For example, managers agreed to take

responsive action on 97 percent of the 2,040 audit

recommendations made by this office during fiscal years 1998 and

1999.   We do not have comparable information from earlier

periods, but senior auditors in my office believe that this

compliance rate is far higher than was the case during the

earlier years of the OIG, DoD.   We do not expect to win every

battle and it would be unreasonable to expect agreement with

every audit recommendation, nor is it realistic to expect timely
                                                                     6


implementation of every agreed-upon recommendation.    The

majority of agreed-upon actions are carried out within

reasonable timeframes, but significant exceptions do occur.

Nevertheless, we believe that the very high level of acceptance

of our recommendations and reasonably good follow-up record

speak well for both the auditors’ performance and the

receptiveness of managers to the audit advice they receive.



The main concern with the effectiveness of auditing in DoD

relates not to management inaction on audit advice, but to the

inadequate audit coverage of many high risk areas because of

resource constraints and conflicting priorities.    I will

elaborate on that concern later when I discuss the top

management challenges.



                Information Technology Management



Information technology is transforming both military science

and business practices.   The DoD operates about 10,000 mission

critical or essential networks and is rapidly expanding its

use of web-based technology for electronic commerce and other

“paperless” functions.    The annual budget for information system

development, procurement, operation and maintenance is about

$16 billion, but even that large figure does not fully portray
                                                                   7


the paramount importance of information systems to virtually

every facet of managing the Armed Forces and their support

establishment.



The DoD badly needs to complete its implementation of the

Clinger/Cohen Act.   Appropriately, there has been increased

congressional interest recently in turning around the long-

standing problem of inadequate management control over

information technology investments, standards and practices.

The Defense Appropriations Act for Fiscal Year 2000 levied

stringent new requirements on the Department to ensure a

complete break with overly decentralized and often inefficient

practices for reviewing, approving, monitoring and funding

automated system acquisition projects.    Better management is

needed to avoid costly acquisition failures of the 1990’s like

the Army Ground Based Common Sensor System and Defense

Commissary Information System.



Currently, less than 10 of the Department’s hundreds of “IT”

acquisition projects are being audited annually.    Now that the

massive Y2K audit effort is behind us, it is vitally important

to provide more oversight in this area.
                                                                   8


We are currently working with senior DoD managers to develop a

more active audit effort, resources permitting, to support and

fine tune the Department’s management control processes for IT

system acquisition.   Successful implementation of effective

management oversight processes will help avoid recurrence of

most information system problems currently evident in the DoD.

Those problems include:   too many systems; block obsolescence;

insufficient interoperability; security vulnerabilities;

inconsistent budgeting and reporting; noncompliance with

policies on data standardization, documentation and

configuration management; user dissatisfaction; frequent system

acquisition schedule slippage and cost overruns; and disconnects

between evolving business practices and their supporting system

projects.



In addition to improving management of system acquisition,

the Department needs to modernize and cut support costs for

communications and other information technology infrastructure.

The Y2K conversion has forced the acceleration of efforts to

replace and modernize various equipment, including DoD

telecommunications switches throughout the world, and the

increased awareness of the Department’s dependence on

information technology should focus more attention on related

infrastructure issues.
                                                                      9




Overcrowding of the radio frequency spectrum throughout the

world presents a particularly difficult challenge to military

planners and users of weapon and communication systems.   We

reported in October 1998 that at least 89 weapons and

telecommunications systems had been deployed overseas without

the proper frequency certification and host nation approval.     In

addition, the Military Exchange stores were selling products not

covered by, or compliant with, host nation frequency agreements.

As a result, communications equipment deployed without host

nation approval and frequency assignments cannot be used to its

full capability for training, exercises or operations or without

risking damage to host nation relations.   Potential frequency

spectrum conflicts should be considered during system design,

when host nation agreements are negotiated and before systems

are deployed.   The DoD also needs a more systematic process to

update telecommunications agreements with other countries,

clarification of accountability for managing those agreements

and more emphasis on compliance with them.   The most recent

register of telecommunications agreements was over 4 years old,

at the time of the audit.
                                                                    10


                  Information Technology Security



The heavy dependence of the public and private sectors

on computer technology for processing sensitive information,

controlling infrastructure ranging from air traffic control

systems to power grids, and supporting modern communications

makes information warfare an attractive strategy for hostile

regimes and groups.    Hackers view accessing or vandalizing

Government information systems virtually as a sport, and there

is a significant threat that criminals will exploit information

system security weaknesses to steal data or funds.    The Defense

Information Systems Agency states that over 18,000 cyber attacks

against DoD were detected in FY 1999, a three fold increase over

the previous year.    While this increase is partially

attributable to more effective detection, there is probably more

activity in this arena.



The DoD internal audit community, GAO and other reviewers have

outlined DoD information assurance challenges in numerous

reports.   To meet those challenges, the Department needs to

adapt lessons learned from the Year 2000 conversion effort;

consolidate and update policy guidance; establish better

management control over the many separate efforts now under

way or planned; develop reasonable program performance measures;
                                                                  11


ensure full attention to information assurance concerns in new

system development and electronic commerce initiatives;

intensify on-site information security inspection and audit

efforts; and improve training across the board for technical

personnel, security officers and system users.   The DoD is

turning increased attention to these matters, but a sustained

effort will be needed on a continuous basis for the foreseeable

future.   The DoD audit and investigative communities are working

cooperatively with DoD management to provide support in this

vital area.   These include the establishment of the Defense

Information Infrastructure Intrusions Investigative Team (DI4T)

by the Defense Criminal Investigative Service to provide

immediate criminal investigative response to suspected computer

intrusions against the DoD Information Infrastructure (DII).

The DI4T is an integral part of the law enforcement-

counterintelligence cell of the DoD Joint Task Force-Computer

Network Defense (JTF-CND) that provides for the coordination and

overall situational awareness of all law enforcement and

counterintelligence activities within the DoD conducted in

support of the computer network defense and the DII.   The DCIS

and DoD are also represented and maintain an active role in the

operation of the National Infrastructure Protection Center

(NIPC) at the Federal Bureau of Investigation.
                                                                   12


                      Other Security Concerns



In addition to the challenge of protecting access to information

systems, the DoD received new indications that its procedures

for minimizing security risks from within its own workforce and

contractor personnel also needed improvement.   In October 1999,

the GAO reported severe problems at the Defense Security Service

(DSS), which handles DoD personnel security investigations.     The

GAO faulted the timeliness and quality of DSS investigations and

highlighted a backlog of several hundred thousand cases.     The

DoD agreed with all GAO recommendations and had already replaced

the Director, DSS.   We are following up on the agreed-upon

recommendations and attending periodic DSS management reviews to

monitor the status of corrective actions.   We also are

participating in a DoD study of alternatives for reducing the

backlog of clearance investigations and we are completing audit

work on several related issues.   We plan a series of four

reports over the next several weeks.



The United States Government controls the export of certain

goods and technologies by requiring export licenses for specific

dual-use commodities or munitions.   In the wake of the Cox

Commission Report and other disclosures, congressional and media

attention has focused on the dangers to national security posed
                                                                  13


by an export licensing process that is often alleged to favor

commerce over national security.    Meanwhile, Defense industry

and friendly countries are critical of the current slow and

unpredictable license review procedures.



The Government needs an export licensing and technology transfer

program that protects critical military capabilities through

timely and reasonable reviews but also supports Defense

cooperation with allies and friends.    In an effort to strengthen

security and export controls and to accelerate the review

process, the Deputy Secretary of Defense approved an Arms

Transfer/Technology Transfer White Paper on September 30, 1999,

which kicked off an effort to reengineer the DoD process for

reviewing license applications.    However, the DoD cannot

unilaterally revamp the multiagency license review process and

attaining interagency consensus in this area is very difficult.



Additional challenges facing DoD in this arena include

determining personnel requirements and addressing the marginal

adequacy of the Foreign Disclosure and Technical Information

System (FORDTIS), the principal automated tool for DoD export

control analysts.   The DoD also has no overall capability for

analyzing the cumulative effect of exports and other technology

acquisitions upon other countries’ military capabilities, even
                                                                    14


though this information is critical to evaluating risks inherent

in proposed exports.   Commenting on an IG, DoD, draft report,

the Department generally agreed with our recommendations for

process improvements; however, the new DoD review of the entire

process may result in some of our recommendations being

overtaken by events.   Currently, we are concentrating on meeting

the multi-agency audit requirements mandated by the Congress in

the National Defense Authorization Act for Fiscal Year 2000.

This year, our review is focused on controls in DoD laboratories

and other facilities over information released to foreign

visitors.   We will submit our report in March.



                       Financial Management



The DoD continues to be unable to prepare financial statements

that can withstand the rigors of audit for most individual major

funds and the overall Department.    For FY 1998, as in previous

years, only the Military Retirement Trust Fund received a

favorable audit opinion.    It is unlikely that the audit results

on the financial statements for FY 1999 will be significantly

different when we issue our reports in late February.    The DoD

financial statements for FY 1998 were less timely than ever and

a record $1.7 trillion of unsupported adjustments were

identified by auditors.    This startling figure reflects the
                                                                  15


continued lack of integrated, double-entry, transaction-driven,

general ledger accounting systems.    The laborious workaround

procedures still needed to compile the financial statements are

simply inadequate.



The inadequacy of current systems continues to be the major

impediment to achieving favorable audit opinions and producing

reliable financial reporting.    Major changes are necessary to

ensure that over 200 complex accounting and feeder systems can

produce auditable data.   For this reason, DoD does not expect

a significant improvement in the overall results of financial

statement audits for several more years, although individual

segments of the Department are beginning to show progress.



The DoD made a credible attempt to meet several congressional

reporting requirements with the first Biennial Financial

Management Improvement Plan, September 1998.    In April 1999,

we reported our assessment of the Plan.    Its primary weakness

was a lack of information on the status of efforts to achieve

compliant systems.   This lack of specific data indicates

insufficient overall DoD management control over the financial

systems remediation process.    The Department agreed with our

recommendation to adopt lessons learned from the Year 2000

conversion regarding a central management plan, standardized
                                                                   16


reporting for every system and periodic senior management

review.    However, implementation of that concept has been

disappointingly slow.    Nor does the Department appear to be

making a concerted effort to comply with the congressional

requirement for a wall-to-wall property inventory this year,

which is needed to enable accurate financial reporting regarding

DoD property.



Audits also continue to indicate problems related to cash

management and rate setting in the DoD working capital funds,

inaccurate or untimely recording of obligations and

disbursements in accounting records, and inability to eliminate

unmatched disbursements.    In addition, internal controls in

disbursing offices need improvement to reduce vulnerability to

fraud.    As of September 30, 1999, the Defense Criminal

Investigative Service had 85 open financial fraud cases.      We

have worked closely with the Defense Finance and Accounting

Service to improve their fraud control program, but contractor

payment processes remain vulnerable to fraud and error.    Last

year, contractors voluntarily refunded $97 million of over

payments.    No one can tell how many inaccurate or fraudulent

payments were made, but not detected.
                                                                   17




                            Acquisition



In fiscal year 1999, the DoD purchased about $135 billion in

goods and services, using more than 250,000 contracts, grants,

cooperative agreements and other transactions.    Because of

its huge scale and impact on US military capability, the DoD

acquisition program has always been controversial.    There have

been nearly continuous reform efforts over the past 20 years

to reduce costs and acquisition lead time or to address the

myriad of other issues present in this area.



Resource constraints, numerous mandates and requests for

internal audits in other management areas, and the long-standing

comparative reluctance of DoD acquisition officials to request

audits have severely curtailed internal audit coverage over

the last few years.   This is particularly true for the several

hundred ongoing weapon system acquisition programs.    Although

the largest of those programs are frequently audited by the

General Accounting Office, very few of the small and medium

size programs are receiving audit coverage.    Available

resources are insufficient to support a systematic program of

comprehensive internal auditing based on risk analysis.

Similarly, the 39 percent reduction of the Defense Contract
                                                                 18


Audit Agency between 1990 and 1999 has limited contract audit

coverage.



Although recent audit coverage on many acquisition programs,

issues and initiatives has been limited, we have been actively

involved in numerous DoD acquisition reform process action teams

and task forces.   We have commented extensively on proposed

acquisition legislation and regulatory changes.   We have also

performed indepth audits of some acquisition issues of

particular interest to the Department and Congress.    Those

issues include spare parts pricing, defense industry

consolidation, and the use of multiple award task order

contracts.



The IG, DoD, supported the acquisition reform laws passed during

the 1990’s.   Further refinements to those laws and others

governing DoD acquisition practices should be welcomed and fully

considered.   However, we urge that the primary focus for the

near term be on fully implementing and assessing the impact of

the recently enacted changes, as opposed to proposing more

changes just to maintain a sense of momentum.



Determining the impact of the enacted legislative and regulatory

changes and of numerous ongoing acquisition initiatives is often
                                                                  19


hampered by slow implementation actions, insufficient experience

to date using the new practices, uncertainty on whether

implementation was complete or properly done, a lack of

specified performance metrics and the absence of independent

validation of reported results.



Audits continue to indicate problems in the Department’s

attempts to comply with reform legislation, specifically in

the area of adopting commercial buying practices and

establishing equitable business relationships with contractors

for spare parts.     When genuine competition exists, market forces

drive prices down.    However, when competition is limited or non-

existent, there are no equivalent market forces and in sole-

source purchasing the Department frequently pays exorbitant

prices.



Our audit coverage over the past two years has been concentrated

in the historically high risk area of aviation spares, but the

same problems likely pervade other commodity areas.    The DoD has

been slow in providing adequate guidance and training

to contracting officers.    There continues to be too much

emphasis on weakening the Truth in Negotiations Act, the primary

safeguard of the Government’s interest when competition is

lacking.   On the other hand, the Department is attempting to
                                                                  20


establish more reasonable, long term arrangements with several

key suppliers and useful models may result from those efforts.

We will issue additional reports on this matter over the next

few months.



Throughout the 1990’s, most acquisition reform emphasis was on

systems and hardware procurement.     The DoD has realized that

purchasing services, such as management consulting, information

system maintenance, testing support and environmental cleanup,

deserves equal emphasis.     We believe that, in many ways,

contracting for services is intrinsically harder than for

systems or equipment, yet training for contracting personnel in

this area is deficient.     The DoD spent over $50 billion for

services in 1999, so it is important that controls be adequate

and decision making be sound.



We are gratified by the quick response of the Congress, Office

of Federal Procurement Policy and DoD to our report that

multiple award task order contracts were being misused to avoid

competition.   We will issue a comprehensive report on services

contracts in a few weeks.     Likewise, we are assessing the impact

of downsizing on the DoD acquisition work force and will issue a

report in the near future.
                                                                    21


                            Health Care



The Military Health System (MHS) costs nearly $16 billion

annually and serves approximately 8.2 million eligible

beneficiaries through its health care delivery program, TRICARE.

TRICARE provides health care through a combination of direct

care at Military Department hospitals and clinics and purchased

care through managed care support contracts.     The MHS has dual

missions to support wartime deployments (readiness) and provide

health care during peacetime.



The MHS faces three major challenges:     cost containment,

transitioning to managed care, and data integrity.     These

challenges are complicated by the inadequate information systems

available to support the MHS.



Cost containment within the MHS is challenged by the continued

lack of good cost information combined with significant levels

of health care fraud.   Lack of comprehensive patient-level cost

data has complicated decisions regarding whether to purchase

health care or to provide the care at the military treatment

facility.
                                                                  22


To combat health care fraud, the Defense Criminal Investigative

Service has developed an active partnership with the TRICARE

Management Activity to give high priority to health care fraud

cases, which comprise a growing portion of the overall

investigative workload.   As of September 30, 1999, we had

531 open criminal cases in this area.    The following examples of

recently closed cases show the kinds of improper activity being

encountered.



-    Genentech, Incorporated, of San Francisco, California, was

     sentenced to pay the Government a total of $50 million to

     resolve issues related to the introduction of misbranded

     drugs in interstate commerce.    Genentech admitted that,

     between 1985 and 1994, it aggressively marketed the

     synthetic hormone Protropin, one of its most lucrative

     prescription drugs, for various medical conditions for

     which the drug had not received Food and Drug

     Administration (FDA) approval.    During this time period,

     the FDA had approved the drug only for use against a rare

     growth disorder found in a small percentage of children.



-    As a result of an investigation in connection with a Qui

     tam suit, a $7,742,564 settlement was reached between the

     Government and the Chapter 11 trustee for the National
                                                                   23


    Recovery Institute Group (NRIG).    The suit alleged that

    NRIG, a drug and alcohol abuse clinic, billed TRICARE,

    Medicare and Medicaid for services not rendered in

    accordance with program requirements and for services that

    were not medically necessary.



-   Investigation of a Qui Tam complaint resulted in a

    $51 million civil settlement by Kimberly Home Healthcare,

    Incorporated, of Miami, Florida (Kimberly), a subsidy of

    Olsten Health management Corporation.    Kimberly pled guilty

    in U.S. District Courts in Atlanta, Miami and Tampa to

    assisting the Columbia Healthcare Corporation in the

    preparation and filing of false cost reports with the

    Government for home health care.    In addition to the civil

    settlement mentioned above, the corporation was sentenced

    to pay fines totaling $10,080,000.



-   A $4,149,555 settlement agreement was reached between the

    Government and Nova Southeastern University, Incorporated

    (Nova), Fort Lauderdale, Florida.    The settlement was a

    result of an investigation into allegations that Nova

    billed TRICARE, Medicare and Medicaid for psychological

    services purportedly provided by licensed therapists or
                                                                     24


     physicians when, in fact, the services at issue were

     provided by unlicensed student interns.



These are but a few examples of problems that pervade the health

care industry and represent a growing challenge for the DoD.



Data integrity in management information systems has been a

persistent problem affecting health care program effectiveness

and efficiency.   Incomplete and inaccurate data has made the DoD

unable to clearly identify health care costs, identify unit and

individual readiness for deployment, or coordinate direct health

care with purchased health care.     DoD management is now putting

considerable emphasis on better data quality and significant

progress is being made.



Transitioning to managed care is a critical element of peacetime

health care delivery.     The issue is complicated by a lack of

understanding about TRICARE, multiple TRICARE programs offering

similar but not identical benefits, and increased focus on

providing peacetime health care to the growing retiree

population.   An audit of the TRICARE marketing program showed

that while beneficiary understanding of TRICARE is improving,

DoD has provided Service members with incomplete, incorrect, and

inconsistent information.     In addition, the combination of base
                                                                  25


and hospital closures and military downsizing, with a growing

and aging population of retired beneficiaries (those eligible

for Medicare but not DoD-purchased health care) more eligible

veterans and their families are finding themselves without

access to direct care resources.   Attempts to address that

problem have led to a proliferation of health care demonstration

programs that have further confused the eligible population.



                   Supply Inventory Management



Although DoD has substantially downsized its force structure,

it has not reduced operations and support costs commensurately.

However, the Department is pursuing over 300 logistics reform

initiatives, many of which involve supply inventory management.

The DoD intends to consolidate management of inventory functions

and reduce warehousing requirements; reengineer DoD product

support activities; adopt best business practices that include

world-class standards of logistics performance; implement

electronic commerce; and improve response times for delivering

goods and services to customers by expanding the use of prime

vendors, virtual prime vendors, and direct vendor delivery.

Determining appropriate requirements for materiel to be managed

and stocked, identifying and canceling purchases of excess

materiel, eliminating unnecessary items from inventory and
                                                                    26


distributing items more efficiently are areas that need

improvement.   In addition, spare parts shortages impacting

readiness are being reported by operational units and repair

depots, total asset visibility initiatives remain insufficient

and inappropriate disposal practices continue to be a problem

for the Department.   Accordingly, supply inventory management

remains a high risk area.



The Department has reduced wholesale supply stocks by almost one

half over the last 10 years, from about $107 billion in 1989 to

a current estimate of $55 billion.   Nevertheless, an FY 1999 GAO

report states that about 60 percent of the total on-hand

secondary inventory in FY 1997 exceeded DoD requirements.     The

DoD disagrees with the GAO figure, but it is clear that further

improvement is needed in inventory management.    The gradual

transition from just-in-case to just-in-time supply support

practices is reducing logistics costs, but operating units and

repair depots are raising concerns about spare parts shortages.

All of the Services are reporting shortages, but the problem is

most acute for Air Force aircraft, as reflected in mission

capable rates that have declined to 73 percent.    The DoD needs

to do a better job of forecasting requirements, making smart

procurement decisions to achieve economical order quantities,

executing spare part budgets, reducing repair cycle times and
                                                                  27


implementing information systems that are crucial to effective

and efficient inventory management.



The Department has vulnerabilities in preventing public access

to live ammunition, explosives, and other dangerous residue

cleared from military ranges.   An IG, DoD, evaluation of the

munitions disposal process led to multiple recommendations to

the Department in September 1997 to tighten controls and improve

procedures for clearing ranges and disposing of munitions.

Although conditions at the ranges and in the disposal process

warranted immediate attention, and the Secretary of Defense

designated the handling of unexploded ordnance a material

management control weakness in January 1999, the cognizant DoD

level offices were still determining responsibility for issuing

guidance in September 1999.   Fortunately, ongoing follow-up

indicates that many installations and commands are taking

corrective action despite the continued lack of DoD guidance.



Although the wave of property disposal caused by force structure

and inventory reductions in the early to mid-1990’s has abated,

somewhat, the DoD still has a high volume of widely dispersed

disposal operations which continue to pose significant

challenges.   The Department’s ongoing efforts to improve asset

visibility and requirements determination should help minimize
                                                                    28


the instances of needed items being sent to disposal, but more

effective demilitarization practices are needed.    The Department

has implemented some audit recommendations in this area, but is

lagging behind on others.    For example, in April 1997 we

reported that no effective process existed for determining which

of the hundreds of thousands of Government-owned property items

and other materiel in contractor plants were munitions list

items requiring demilitarization screening and special disposal

instructions.   Regulatory changes to address that problem are

still incomplete.



This area also remains vulnerable to criminal schemes, as

indicated by the 57 open Defense Criminal Investigative Service

cases involving disposal activities as of September 30, 1999.



                    Other Infrastructure Issues



In addition to adopting more modern and efficient supply

processes, the DoD needs to improve a wide variety of other

support activities to cut costs.    These include maintenance,

transportation and facilities functions.    For purposes of this

discussion, the facilities area includes base structure,

military construction, real property operations and maintenance,

and environmental cleanup.    The common challenge in these areas
                                                                  29


is how to cut costs to reduce the current imbalance between DoD

administrative and other support costs on the one hand, and

modernization and operations requirements on the other.



Disagreements between the DoD and Congress about depot

maintenance outsourcing remain a problem, but the Department has

moved forward on numerous public/private partnering arrangements

that are promising.   The Services are also attempting to

streamline maintenance operations at other levels and the weapon

system acquisition process is now geared toward expanded

contractor life cycle support, which should be more economical.

The Department has additional opportunities for management

improvement and efficiencies by consolidating requirements for

maintenance and repair contracts, implementing better

performance measures, restructuring and modernizing management

information systems, better accounting for depot maintenance

workloads, and collecting more reliable cost information.



Although worldwide transportation costs have dropped during the

1990’s, DoD costs have not shown proportionate decreases.

Numerous initiatives are under way to address that problem.

These include implementing a commercial, off the shelf, on-line,

freight management and payment system (Powertrack) to replace

the enormously inefficient, paper intensive, transportation
                                                                     30


vendor pay practices that currently create serious vulnerability

to fraud.     The DoD pays $650 million a year to freight

forwarders and shippers.     In the controversial area of household

goods shipments, which cost an additional $1.2 billion annually,

three pilot reform programs are ongoing.     We are auditing the

Powertrack system effort and some aspects of the household goods

pilot programs, at the request of DoD managers.



The DoD is still burdened with the cost of operating more bases

than are needed to support the force structure; however, the

Congress did not grant the DoD requests in the last two budgets

for additional base realignment and closure authority.      It is

still likely that an agreement will be reached on more closures

at some future date.     In addition to eliminating underutilized

installations, the DoD needs to keep working to avoid

unnecessary facilities investments and stretch available

construction dollars as far as possible.     The DoD is also faced

with heavy costs resulting from hazardous waste products from

the maintenance, repair and disposal of many current weapon

systems, as well as ground and water cleanup at active, closing

and closed bases.     The Department is putting considerable

emphasis on cost containment in this area, but more needs

to be done.     As in other areas, the environmental management

effort is also challenged by fraud.
                                                                  31




                            Readiness



The difficulty of maintaining sufficient military readiness at

constrained budget levels has been the subject of congressional

hearings and public dialogue for the past several years.     In

addition to financial problems, the readiness posture is

affected by the changing threat environment, which now includes

bona fide information warfare threats and concerns about weapons

of mass destruction in the hands of terrorists.   However,

increased operating tempo (OPTEMPO) has probably had the most

significant impact on readiness, affecting mission-capable

rates, personnel retention, spare parts availability, unit

training, and operations and maintenance costs.



Since the end of the Cold War, the frequency of U.S. military

involvement in operations other than war has increased, while

force structure and military end-strength have been reduced.

This OPTEMPO has adversely affected the combat capability of

deployed units in Bosnia and Southwest Asia as well as some

units that remain at home station, as they have to pick up the

work of the deployed units while simultaneously supporting them

with personnel, equipment and spare parts.   Aircraft

participating in deployments are being flown more hours than is
                                                                     32


the case during regular training missions.     It is estimated that

some wings are putting about 2 years worth of flying hours on

aircraft in about 6 months during their Southwest Asia

deployments.     This accumulation of flying hours, combined with

the age of some aircraft, has revealed atypical and unbudgeted

wear and maintenance problems particularly on the F-15C and the

A-10 aircraft.     The pace of these deployments is also, at least

in part, causing aircraft mission-capable rates to decline and

the increased consumption of parts has exacerbated existing

parts shortages, causing cannibalization rates to increase.      The

logistics problems affecting many units, especially in the Air

Force, were discussed previously under Supply Inventory

Management.



Training is a key factor in readiness.     The Air Force in

particular indicates that aircrew combat proficiency may be

declining partly due to frequent and recurring deployments.

F-15 and F-16 fighter squadron personnel, particularly those

participating in Operation Southern Watch in Southwest Asia,

frequently described their mostly routine missions as having

little combat training value.     For the Army, especially at

battalion, brigade, and division levels, current peacekeeping

operations detract from the Army’s established training cycle

to sustain highly trained and combat-ready teams.     While in
                                                                  33


Bosnia, armored and mechanized infantry units generally do not

conduct any armored maneuver operations and are relieved from

tank and Bradley gunnery requirements.   The inability to conduct

needed training threatens skills which are extremely perishable.

Returning units to their wartime mission capability levels

during peacetime is also a problem, taking from several weeks

for some support units to more than a year for some combat

units.   In addition, entire units are not always deployed.   As a

result of deploying partial units, the nondeployed portions lack

the officers and senior noncommissioned officers needed to train

more junior soldiers, cannot conduct training above the small

unit and individual soldier level, and have to do not only their

work but that of the deployed portion of the unit.



Accurate reporting of unit level readiness also remains a

concern.   The Global Status of Resources and Training System

(GSORTS) indicates that the readiness of units engaged in these

deployments in all of the Services has been adversely affected.

These effects are particularly evident in the Army with lower

unit level readiness ratings, although division level ratings

have recently received much publicity.   However, important

information about a unit’s condition is not always readily

apparent in GSORTS and sometimes not reported at all.   Actual

unit conditions are masked by factors such as the counting of
                                                                    34


temporarily assigned personnel against wartime manning

requirements, optimistically estimating training status, and

inconsistent reporting.



Other readiness indicators, such as reported backlogs of

equipment and real property for maintenance and repair, are

notoriously unreliable.   There is extensive activity under way

to address those problems; however, audit and inspection

coverage of these and other readiness issues has been very

limited over the past couple years, partially due to the need to

monitor Y2K conversion status.



Turbulence from Change



There are high stakes involved in the DoD efforts to implement

fundamental reform throughout the Department and, in all cases

there is a need to push ahead vigorously and expeditiously.    In

fact, in most areas even more should be done.   Nevertheless, it

must be recognized that the nature, scope, and duration of the

DoD reform effort create a number of significant management

challenges in their own right.   Those “change management

challenges” include:



     •    maintaining high workforce morale and productivity;
                                                                  35




     •    continuously retraining the workforce to ensure

          they have adequate command of constantly changing

          rules and processes;



     •    harmonizing the thousands of changes and initiatives

          so that they do not conflict with each other;



     •    measuring the results of each initiative and

          getting objective feedback to validate reported

          performance; and



     •    maintaining appropriate emphasis on internal

          controls and accountability.



These issues are particularly hard to deal with because they

tend to cut across organizational and functional lines.    We

believe that much more needs to be done to focus on workforce

hiring, training and retention, because even the best new

procedure or process will fail without a well motivated,

properly trained and adequately supported workforce.   Our

pending report on the DoD acquisition corps reductions will

highlight the problems that result from cutting the workforce in

half while workload remains relatively constant.   We will also
                                                                   36


discuss the “greying” of the acquisition workforce and the very

high attrition rates projected over the next few years.    High

turnover compounds the training problem.   These kinds of issues

undoubtedly apply to other sectors of the DoD workforce as well.



The problem of conflicting goals and inconsistent emphasis may

be inevitable when so many initiatives are ongoing

simultaneously.   The DoD has realized that virtually all aspects

of its operations involve multiple organizations and

disciplines, so that unilateral attempts by individual managers

to redesign processes are doomed to failure.   The growth in the

1990’s of problem solving initiatives with a more integrated,

cross-cutting approach is one of the most positive trends that

we have seen in the Department.   However, more needs to be done.

For example, the finance and acquisition communities appear to

be moving in opposite directions on contractor pay.     The finance

community is attempting to improve controls over payments by

taking measures like rejecting vouchers with remittance

addresses that are not in the Central Contractor Registry and

may be suspect.   Some payments could be delayed, but

vulnerability to fraud and error would be reduced.    However,

some DoD acquisition officials believe that payments to

contractors are not being made promptly enough, and they

advocate making payment without any attempt to match invoices to
                                                                   37


receiving documents.   The Department generally resolves

inconsistent guidance, but in the meantime the workforce cannot

help but be somewhat unclear about DoD priorities.



Finally, we believe strongly that proper oversight is

particularly useful and necessary during times of major changes.

Identifying impediments to implementing new laws and policies,

suggesting ways to fine tune initiatives to make them more

effective, and providing objective feedback on whether intended

results are being achieved are the kinds of valuable support

that auditors can furnish.    Perhaps the best recent example of

such support was our massive audit effort to help the DoD

implement its Y2K conversion plan.    The Department has been very

generous in its positive comments on the important contribution

that we were able to make to the DoD success in overcoming the

difficult Y2K challenge.



Unfortunately, the resources allocated to the OIG, DoD, are not

sufficient to enable comprehensive oversight in many areas.

Between 1995 and 1999, funded IG, DoD, work-years were reduced

by 26 percent, while mandated and requested workload

simultaneously increased.    The Department scaled back further

major cuts that had been planned for FY 2000 through 2004, but

it was very disappointing when the Congress cut our FY 2000
                                                                  38


appropriation request.   The combination of that reduction and

the continuing need for full scale audit support of Y2K

conversion has hampered our efforts to increase oversight

coverage of the high risk areas that I have discussed in this

statement.   Most of the individual DoD process changes and new

systems have not been audited and the results are either unknown

or unverified.



                               Summary



In summary, the DoD faces a wide array of formidable problems,

many of which will require years of sustained effort to solve.

We believe that the DoD audit and investigative communities play

a vital role in identifying those problems, helping to fix them

and verifying results.   On the whole, DoD managers recognize and

appreciate that role and we consider our working relationships

with all major DoD components to be good.



This concludes my statement.
